No.
IN THE
SUPREME COURT OF THE UNITED STATES

AARON ORLANDO RICHARDS — PETITIONER
vs.
DARREL VANNOY, WARDEN — RESPONDENT(S)
PROOF OF SERVICE
I, Aaron Orlando Richards, do swear or declare that on this date,
March 23, 2021, as required by Supreme Court Rule 29 I have served the
enclosed Motion For Leave to Proceed in Forma Paupers and Petition for a
Writ of Certiorari on each party to the above proceeding or that party's
counsel, and on every other person required to be served, by depositing and
envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by
delivery to a third-party commercial carrier for delivery within 3 calendar
days.
The names and addresses of those served are as follows:
Keith A. Stutes
Lafayette Parish District Attorney
P. O. Box 3306
Lafayette, LA 70502-3306
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 23, 2021
(Signature)

